                                                     u.s. OFFICE OF PERSONNEL MANAGEMENT
                                                                OFFICE OF THE INSPECTOR GENERAL
                                                                                 OFFICE OF AUDITS




                                   Final Audit Report

Subject:

            AUDIT OF INFORMATION SYSTEMS

        GENERAL AND APPLICATION CONTROLS AT

       BLUECROSS BLUESHIELD OF SOUTH CAROLINA



                                            Report No. lA-lO-24-11-014

                                            Date:                  11/09/11




                                                          --CAUTION-­
This audit report has been distributed to Federal and Non-Federal officials who are responsible for the administration of the audited
contract. This audit report may contain proprietary data which is protected by Federal law (18 U.S.c. 1905). Therefore, while this audit
report is available under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be
exercised before releasing the report to the general public as it may contain proprietary information that was redacted from the publicly
                            UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                            Washington, DC 20415



  Office of the
Inspector General




                                            Audit Report


                      FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM

                                   CONTRACT CS 1039

                          BLUECROSS BLUESHIELD OF SOUTH CAROLINA

                                     PLAN CODES 380/880

                                  COLUMBIA, SOUTH CAROLINA





                                    Report No. lA-10-24-11-014

                                    Date:          11/09/11




                                                                    Michael R. Esser
                                                                    Assistant Inspector General
                                                                      for Audits




        www.o p rn.g ov                                                              www.usajobs.gov
-----------------------------------
                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                                Washington, DC 20415



  Office of the
Inspector General




                                          Executive Summary



                    FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM

                                 CONTRACT CS 1039

                       BLUECROSS BLUESHIELD OF SOUTH CAROLINA

                                  PLAN CODES 380 / 880

                                  COLUMBIA, SOUTH CAROLINA





                                      Report No. lA-10-24-11-014

                                      Date:             11/09/11



       This final report discusses the results of our audit of general and application controls over the
       information systems at BlueCross BlueShield of South Carolina (BCBSSC),

       Our audit focused on the claims processing applications used to adjudicate Federal Employees
       Health Benefits Program (FEHBP) claims for BCBSSC, as well as the various processes and
       information technology (IT) systems used to support these applications. We documented
       controls in place and opportunities for improvement in each of the areas below.

       Security Management
       BCBSSC has established a comprehensive series oflT policies and procedures to create an
       awareness of IT security at the Plan. We also verified that BCBSSC has a thorough risk
       management methodology and adequate security-related human resources policies.




        www.o pm.gov                                                                            www.us ajobs..gov
Access Controls
We found that BCBSSC has implemented numerous physical controls to prevent unauthorized
access to its facilities, as well as logical controls to prevent unauthorized access to its
information systems. However, we have found the following controls could use improvement:
   •   Segregation of duties;
   •   Logical access privileges approval and review;
   •   Tracking weaknesses identified in vulnerability scans;
   •   Email encryption;
   •   Laptop encryption; and,
   •   Network port scanning.

Configuration Management
BCBSSC has developed formal policies and procedures providing guidance to ensure that system
software is appropriately configured and updated, as well as for controlling system software
configuration changes.

Contingency Planning
We reviewed BCBSSC’s business continuity plans and concluded that they contained the key
elements suggested by relevant guidance and publications. We also determined that these
documents are reviewed, updated, and tested on a periodic basis. However, BCBSSC stores its
data backup tapes at a location near the data center that could be potentially impacted by the
same disruptions.

Application Controls
BCBSSC has implemented many controls in its claims adjudication process to ensure that
FEHBP claims are processed accurately. However, we recommended that BCBSSC implement
several system modifications to ensure that its claims processing systems adjudicate FEHBP
claims in a manner consistent with the OPM contract and other regulations.

Health Insurance Portability and Accountability Act (HIPAA)
Nothing came to our attention that caused us to believe that BCBSSC is not in compliance with
the HIPAA security, privacy, and national provider identifier regulation.




                                               ii
                                                                   Contents
                                                                                                                                                Page
Executive Summary ............................................................................................................................ i
 I. Introduction ................................................................................................................................. 1
      Background ................................................................................................................................. 1
      Objectives ................................................................................................................................... 1
      Scope ........................................................................................................................................... 2
      Methodology ............................................................................................................................... 2
      Compliance with Laws and Regulations..................................................................................... 3
II. Audit Findings and Recommendations ....................................................................................... 4
      A. Security Management ............................................................................................................ 4
      B. Access Controls ..................................................................................................................... 4
      C. Configuration Management.................................................................................................... 9
      D. Contingency Planning .......................................................................................................... 10
      E. Application Controls ............................................................................................................ 11
      F. Health Insurance Portability and Accountability Act ........................................................... 16
III. Major Contributors to This Report ............................................................................................ 17

  Appendix: BlueCross BlueShield Association’s June 28, 2011 response to the draft audit report
            issued April 19, 2011.
                                       I. Introduction
This final report details the findings, conclusions, and recommendations resulting from the audit
of general and application controls over the information systems responsible for processing
Federal Employees Health Benefits Program (FEHBP) claims by BlueCross BlueShield of South
Carolina (BCBSSC).

The audit was conducted pursuant to FEHBP contract 1039; 5 U.S.C. Chapter 89; and 5 Code of
Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the U.S. Office of
Personnel Management’s (OPM) Office of the Inspector General (OIG), as established by the
Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

This was our first audit of BCBSSC’s general and application controls. We also reviewed
BCBSSC’s compliance with the Health Insurance Portability and Accountability Act (HIPAA).

All BCBSSC personnel that worked with the auditors were particularly helpful and open to ideas
and suggestions. They viewed the audit as an opportunity to examine practices and to make
changes or improvements as necessary. Their positive attitude and helpfulness throughout the
audit was greatly appreciated.

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability of FEHBP data processed and maintained in BCBSSC’s IT environment.
We accomplished these objectives by reviewing the following areas:
 •   Security management;
 •   Access controls;
 •   Configuration management;
 •   Segregation of duties;
 •   Contingency planning;
 •   Application controls specific to BCBSSC’s claims processing systems; and,
 •   HIPAA compliance.




                                                  1
Scope
This performance audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States. Accordingly, we
obtained an understanding of BCBSSC’s internal controls through interviews and observations,
as well as inspection of various documents, including information technology and other related
organizational policies and procedures. This understanding of BCBSSC’s internal controls was
used in planning the audit by determining the extent of compliance testing and other auditing
procedures necessary to verify that the internal controls were properly designed, placed in
operation, and effective.

The scope of this audit centered on the information systems used by BCBSSC to process medical
insurance claims for FEHBP members, with a primary focus on the
                                and FEP Direct claims adjudication applications. The business
processes reviewed are primarily located in BCBSSC’s Columbia, South Carolina facility.

The on-site portion of this audit was performed in February and March of 2011. We completed
additional audit work before and after the on-site visits at our office in Washington, D.C. The
findings, recommendations, and conclusions outlined in this report are based on the status of
information system general and application controls in place at BCBSSC as of April 8, 2011.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
BCBSSC. Due to time constraints, we did not verify the reliability of the data used to complete
some of our audit steps but we determined that it was adequate to achieve our audit objectives.
However, when our objective was to assess computer-generated data, we completed audit steps
necessary to obtain evidence that the data was valid and reliable.

Methodology
In conducting this audit, we:
•   Gathered documentation and conducted interviews;
•   Reviewed BCBSSC’s business structure and environment;
•   Performed a risk assessment of BCBSSC’s information systems environment and
    applications, and prepared an audit program based on the assessment and the Government
    Accountability Office's (GAO) Federal Information System Controls Audit Manual
    (FISCAM); and,
•   Conducted various compliance tests to determine the extent to which established controls and
    procedures are functioning as intended. As appropriate, we used judgmental sampling in
    completing our compliance testing.

Various laws, regulations, and industry standards were used as a guide to evaluating BCBSSC’s
control structure. This criteria includes, but is not limited to, the following publications:
•   Title 48 of the Code of Federal Regulations (CFR);
•   Office of Management and Budget (OMB) Circular A-130, Appendix III;


                                               2
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
•   GAO’s FISCAM;
•   National Institute of Standards and Technology’s Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
•   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-41 Revision 1, Guidelines on Firewalls and Firewall Policy;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-61, Computer Security Incident Handling Guide;
•   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and,
•   HIPAA Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether BCBSSC’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
BCBSSC was not in complete compliance with all standards as described in the “Audit Findings
and Recommendations” section of this report.




                                                3
                      II. Audit Findings and Recommendations

A. Security Management
  The security management component of this audit involved the examination of the policies and
  procedures that are the foundation of BCBSSC’s overall IT security controls. We evaluated
  BCBSSC’s ability to develop security policies, manage risk, assign security-related
  responsibility, and monitor the effectiveness of various system-related controls.

  BCBSSC has implemented a series of formal policies and procedures that comprise a
  comprehensive security management program. BCBSSC’s security management program is led
  by the company’s Security Council; their responsibilities include creating policies to protect
  against threats or improper use of sensitive data, HIPAA compliance, and to provide central
  governance and coordination. BCBSSC has also developed a thorough risk management
  methodology, and has procedures to document, track, and alleviate or accept identified risks. We
  also reviewed BCBSSC’s human resources policies and procedures related to hiring, training,
  transferring, and terminating employees.

  Nothing came to our attention to indicate that BCBSSC does not have an adequate security
  management program.

B. Access Controls
  Access controls are the policies, procedures, and controls used to prevent or detect unauthorized
  physical or logical access to sensitive resources.

  We examined the physical access controls of the several BCBSSC office buildings, data centers,
  tape vaults, and print facilities.

  We also examined the logical controls protecting sensitive data in BCBSSC’s network
  environment and claims processing related applications.

  The access controls observed during this audit included, but were not limited to:
  •   Procedures for appropriately granting and revoking physical access privileges to the data
      centers;
  •   Multi-factor authentication requirements to enter the data center, print center, and tape vault;
  •   Use of intrusion detection and prevention techniques;
  •   Use of software tools to monitor and filter email and Internet activity; and,
  •   Strict identification and authentication requirements to access networks and applications.

  However, the sections below document several opportunities for improvement related to
  BCBSSC’s physical and logical access controls.




                                                   4
a)
     Twenty-five BCBSSC application programmers have administrator level access to the
     security tables governing access to the production claims processing environment. This
     access allows the programmers to grant themselves (and others) unrestricted access to
              application data.

     Failure to implement adequate segregation of duties increases the risk that erroneous or
     fraudulent transactions could be processed, that improper program changes could be
     implemented, or that computer resources could be damaged or destroyed. FISCAM section
     3.4 states that “Work responsibilities should be segregated so that one individual does not
     control all critical stages of a process.” FISCAM also states that “Programmers should not
     be responsible for moving programs into production or have access to production libraries or
     data.”

     Recommendation 1
     We recommend that BCBSSC remove all application programmers’                   user accounts in
     the production application as well as their administrator rights to         security tables.

     BCBSSC Response:
     “The Plan agrees with this finding. BCBSSC will remove all application programmers’
             user accounts from the production application access lists as well as their
     administrator rights to production         security tables.         and Data Security
     Management are developing a process that will allow programmers the ability to access the
     production          application on an as needed basis to resolve emergency production
     issues. The anticipated completion date for this project is 4th quarter 2011. Research and
     changes are required to assure that the application programmers can keep their test
     application security access when removed from the production application security tables.”

     OIG Reply:
     As part of the audit resolution process, we recommend that BCBSSC provide OPM’s Audit
     Resolution group with evidence that they have removed all application programmers’
             user accounts in the production application as well as their administrator rights to
             security tables.

b) Logical Access Privileges Approval and Review
     The BCBSSC Information Assurance Group (IAG) routinely facilitates an              access
     “recertification.” IAG distributes lists of active    user accounts to business unit
     managers who must certify that their employees continue to require access to the application.

     Although the recertification process verifies that users still need access to          managers
     are not required to verify that the specific application transactions/features that each user has
     access to are appropriate for that individual.




                                                   5
   We also conducted a test to determine whether a user’s initial system access was approved by
   that user’s manager. We requested a sample of information system access request forms for
   employees who have active access to the claims processing system. However, the Plan was
   unable to retrieve the majority of requested access request forms, and we were unable to
   verify that these employees’ system access was ever officially approved. The risk that these
   individuals have inappropriate access would be remediated by a recertification process that
   includes a transaction-level review.

   FISCAM critical element AC-3.1 states the computer resource owner should “identify the
   nature and extent of access to each resource that is available to each user . . . . Access may
   be permitted at the file, record, or field level . . . . Owners should periodically review access
   authorization listings and determine whether they remain appropriate. Access authorizations
   should be documented on standard forms and maintained on file.”

   Failure to routinely recertify the appropriateness of transaction-level access could allow
   employees to perform functions or access sensitive information that they should not have
   approval to access.

   Recommendation 2
   We recommend that BCBSSC modify the                   recertification process to include
   verification that the specific application transactions/features that each user has access to is
   appropriate for that individual.

   BCBSSC Response:
   “The Plan indicated that the application level security is the primary mechanism used to
   control access to         data and functions. Managers are responsible for requesting the
   required access for their employees to perform routine job functions and responsibilities.

   Information System (I/S) areas of responsibility is to work with Corporate Audit IAG to
   enhance the current quarterly           application access recertification. Enhancements
   will include providing each manager with more information to determine if the level of
   access assigned is appropriate. First, the Plan’s I/S staff must complete the design signoff
   and determine the cost of the project. Once the cost has been determined, a request for
   funding approval will be submitted to FEP. [The scheduled] completion date for these
   activities [is] 4th Quarter 2011.”

   OIG Reply:
   As part of the audit resolution process, we recommend that BCBSSC provide OPM’s Audit
   Resolution group with evidence that the appropriate modifications to the current quarterly
           application access recertification have been completed.

c) Tracking Weaknesses Identified in Vulnerability Scans
   BCBSSC conducts vulnerability scans of its servers                         using
                                   . The group scans                                          and
   uses a device matrix to ensure that all devices are included                            . The

                                                 6
   results of the vulnerability scans are entered into a vulnerability matrix and forwarded to the
   appropriate system administrators for remediation.

   When the Plan determines that a system change should be implemented to address a
   vulnerability, the BCBSSC change management process is used to track the modification
   (see section C). However, if a system change is not immediately implemented, BCBSSC
   does not currently have a process to continuously track the status (i.e., false positive, risk
   accepted, etc.) of all other items contained within the vulnerability matrix. BCBSSC is
   planning to purchase
                                                                         and track the status of
   each vulnerability identified.

   FISCAM critical element SM-6 states that “When weaknesses are identified, the related risks
   should be reassessed, appropriate corrective or remediation actions taken, and follow-up
   monitoring performed to make certain that corrective actions are effective. Procedures
   should be established to reasonably assure that all IS control weaknesses, regardless of how
   or by whom they are identified, are included in the entity’s remediation processes.”

   Failure to continuously track the status of all issues identified during vulnerability scanning
   could result in system weaknesses being overlooked, increasing the risk of a successful
   system attack.

   Recommendation 3
   We recommend that BCBSSC continue its efforts to develop a methodology to track the
   current status of all potential weaknesses identified during vulnerability scans.

   BCBSSC Response:
   “The Plan agrees with this finding and will continue to develop a methodology to track the
   current status of potential weaknesses identified through vulnerability scans. The target
   completion date is the 4th Quarter 2011.”

   OIG Reply:
   As part of the audit resolution process, we recommend that BCBSSC provide OPM’s Audit
   Resolution group with evidence that the Plan has developed a methodology to track the
   current status of all potential weaknesses identified during vulnerability scans.

d) Email Encryption
   BCBSSC has implemented an email encryption policy that requires the encryption of all
   messages sent outside of the corporate email system that contain sensitive, confidential, or
   protected health information (PHI). BCBSSC uses                                      to secure
   email messages. In order to encrypt an outgoing email message, users manually include the
   word “secure” in the subject line of the e-mail. However,             is not currently
   configured to scan the content of emails and attachments and automatically encrypt emails
   containing sensitive information.


                                                 7
   HIPAA Security Standards § 164.312(a) (2) (iv) states that covered entities must “Implement
   a mechanism to encrypt and decrypt electronic protected health information.” The lack of
   controls to automatically encrypt outgoing email messages increases the risk of BCBSSC
   employees sending insecure emails containing sensitive information.

   Recommendation 4
   We recommend that BCBSSC configure ProofPoint to automatically scan and encrypt all
   outgoing email that contains sensitive information.

   BCBSSC Response:
   “The Plan agrees with this finding. There is currently a project under way to configure
   and implement this functionality for email across all lines of business. The completion
   date for this project cannot be determined until certain phases of these activities have been
   completed. The target completion date is the 4th Quarter 2011.”

   OIG Reply:
   As part of the audit resolution process, we recommend that BCBSSC provide OPM’s Audit
   Resolution group with evidence that ProofPoint has been configured to automatically scan
   and encrypt all outgoing email that contains sensitive information.

e) Laptop Encryption
   BCBSSC has not implemented encryption controls on all laptops issued to employees.

   The current BCBSSC policy for laptop encryption states that the hard drive must be
   encrypted if it contains PHI and is transported outside of the BCBSSC facility. The policy is
   currently being revised to state that all laptop hard drives must be encrypted regardless of
   location.

   We reviewed an inventory of BCBSSC laptops that listed the employee to which each laptop
   is assigned and type of hard drive encryption implemented. Out of the 844 laptops on the
   inventory, 250 are not encrypted.

   HIPAA Security Standards § 164.312(a) (2) (iv) states that covered entities must “Implement
   a mechanism to encrypt and decrypt electronic protected health information.” NIST 800-53
   requires that the information system use cryptographic mechanisms to protect and restrict
   access to information on portable digital media. Failure to encrypt all laptop hard drives
   increases the risk that unauthorized individuals could gain access to sensitive information.

   Recommendation 5
   We recommend that BCBSSC implement encryption controls on all company issued laptops.

   BCBSSC Response:
   “The Plan agrees with this finding. Encryption controls have already been deployed to all
   company issued laptops that reside on Medicare networks. A project is under way to extend

                                               8
      this functionality to all remaining company issued laptops. Target completion date is
      July 31, 2011. Once this project is completed, documentation to support the action taken
      will be provided to OPM.”

      OIG Reply:
      As part of the audit resolution process, we recommend that BCBSSC provide OPM’s Audit
      Resolution group with evidence that BCBSSC has implemented encryption controls on all
      company issued laptops.

  f) Network Port Scanning
      BCBSSC has implemented thorough intrusion detection and incident response capabilities to
      protect its network from external threats. However, the Plan has not implemented technical
      controls to identify
                                                                       .

      NIST SP 800-53 Rev 3 requires that an information system uniquely identify and
      authenticate before establishing a connection. Section IA-3 of the NIST guide states that the
      information system should uniquely identify and authenticate devices before establishing a
      connection. Failure to continuously scan the network for rogue devices could allow someone
      with physical access to BCBSSC facilities to connect an unauthorized device to the Plan’s
      network.

      Recommendation 6
      We recommend that BCBSSC implement controls to continuously scan active ports in its
      network environment             .

      BCBSSC Response:
      “The Plan agrees with this finding. A review of the recommended adoption of Network
      Access Control technology is currently in process. Once the review has been complete and
      the project cost is determine, a request for funding approval will be sent to FEP. The
      anticipated completion date for this project is 1st Quarter 2012.”

      OIG Reply:
      As part of the audit resolution process, we recommend that BCBSSC provide OPM’s Audit
      Resolution group with evidence that BCBSSC has implemented controls to continuously
      scan active ports in its network environment                 .

C. Configuration Management
  BCBSSC’s local claims adjudication system,          is housed on a mainframe environment
  with the                       and access controls managed by
                          We evaluated BCBSSC’s management of the configuration of the
  system software housing        and determined that the following controls were in place:
  •   Policies and procedures for ensuring that operating platforms are securely configured;

                                                  9
  •   Controls for securely managing changes to the operating platform and claims processing
      application;
  •   Controls for monitoring privileged user activity on the operating platform;
  •   Procedures for routinely updating and patching the operating platforms; and,
  •   Procedures for monitoring configuration through vulnerability scans.

  Nothing came to our attention to indicate that BCBSSC does not have adequate controls related
  to configuration management.

D. Contingency Planning
  We reviewed BCBSSC’s contingency planning program to determine whether it contained
  adequate procedures and controls for maintaining critical services for its customers should
  business operations be disrupted. The following elements of BCBSSC’s contingency planning
  program were reviewed:
  •   Business continuity plans for several business units including claims processing, data center
      operations, print operations, mail services, and customer care;
  •   Disaster recovery plan for the          claims processing system;
  •   Disaster recovery plan for the        database; and,
  •   Emergency response procedures and training.

  Although BCBSSC has implemented a thorough contingency planning program, we did note one
  opportunity for improvement in this area.

  a) Location of Backup Tape Vault
      BCBSSC stores its backup data tapes in a vault that is not an adequate distance away from
      the primary data center.

      BCBSSC has a “hot site” available in another state that has the infrastructure in place to
      quickly restore the Plan’s critical information systems in the event that the primary data
      center is disrupted. However, the data tapes required to recover these systems are stored in a
      vault that is less than 4 miles away from the data center housing the production systems. In
      the event of a disaster, BCBSSC would load the tapes into a truck and drive them to the hot
      site.

      The fact that BCBSSC has procured a disaster recovery hot site indicates that they
      understand the risks that a disruptive event (natural disaster, hazardous material spill,
      widespread power outages, etc.) could render the data center inaccessible. It is reasonable to
      expect that such an event could also impact the nearby tape vault facility or the route from
      the tape vault to the hot site.

      NIST SP 800-34 Section 3.41 suggests that “When selecting an offsite storage facility and
      vendor, the following criteria should be considered . . . Geographic area - distance from the


                                                  10
     organization and the probability of the storage site being affected by the same disaster as the
     organization.”

     We believe that the tape vaulting methodology implemented by BCBSSC is notably weaker
     than the controls in place at other FEHBP carriers visited by the OIG. Many other Plans
     utilize modern technology such as electronic vaulting, real-time data mirroring, or at a
     minimum contract with an outside company that has the infrastructure to adequately manage
     their data tapes.

     Recommendation 7
     We recommend BCBSSC reevaluate its methodology for storing data tapes off-site and
     consider implementing the additional controls typically found at other FEHBP insurance
     carriers.

     BCBSSC Response:
     “Information has not been provided to BCBSSC regarding the controls in place at other
     FEHBP carriers. The NIST SP 800-34 Section 3.41 standards do not contain definitive
     criteria as to the location of the vault. In addition, BCBSSC is audited by numerous
     external agencies annually with no findings relative to the vault location.

     BCBSSC will, based upon the recommendation of this report, commence an effort, with
     approval by the FEPDO, to review alternative methodologies as recommended by the
     auditors. Once identified, a plan of action can be developed based on the options
     determined appropriate by FEPDO and BCBSSC. The target completion date for this
     project is the 3rd Quarter 2011.

     OIG Reply
     Although NIST SP 800-34 does not contain definitive criteria as to the location of a tape
     vault, it does state that the probability of the storage site being affected by the same disaster
     as the data center should be considered. We continue to believe that it is reasonable to expect
     that a single disruptive even could impact BCBSSC’s data center and tape vault.

     As part of the audit resolution process, we recommend that BCBSSC update OPM’s Audit
     Resolution group with evidence it has considered alternative storage methodologies and
     developed appropriate plans of action.

E. Application Controls
  Application Configuration Management
  The OIG evaluated the policies and procedures governing software development and change
  control of the BCBSSC’s          claims processing application.

  BCBSSC has an extensive Information Systems Standards Manual which contains detailed
  policies and procedures related to application configuration management. BCBSSC has adopted
  a traditional system development life cycle methodology that IT personnel follow during routine

                                                  11
software modifications. The following controls related to testing and approvals of software
modifications were observed:

•   BCBSSC has adopted practices that allow modifications to be tracked throughout the change
    process;
•   Code, unit, system, and quality testing are all conducted in accordance with industry
    standards; and,
•   BCBSSC utilizes a tool called            to move the code between software libraries and
    ensure adequate segregation of duties.

Claims Processing System
The OIG evaluated the input, processing, and output controls associated with               In terms
of input controls, the OIG documented the policies and procedures adopted by BCBSSC to help
ensure that: 1) there are controls over the inception of claims data into the system; 2) the data
received comes from the appropriate sources; and 3) the data is entered into the claims database
correctly. We also reviewed BCBSSC’s quality assurance methods for reconciling processing
totals against input totals and for evaluating the accuracy of its processes. Finally, we examined
the security of physical input and output (paper claims, checks, explanation of benefits, etc.).

Debarment
The OIG evaluated the policies and procedures governing BCBSSC’s debarment process. We
determined that BCBSSC meets the OPM OIG guidelines with regard to routinely acquiring and
updating debarment files, as well as making reasonable efforts to preclude further payment of
claims for items or services rendered after the date of debarment or suspension.

However, we noted one area for improvement within the debarment process.

a) Auditing of Debarment Database
    BCBSSC uses a manual process to flag debarred providers in its provider database.
    Although the procedures for updating the database appeared thorough, any manual process is
    prone to error. At the beginning of this audit, BCBSSC did not have any procedures for
    routinely auditing the debarment database for accuracy, increasing the risk that errors would
    remain undetected indefinitely.

    During the fieldwork phase of this audit, BCBSSC implemented new procedures that require
    a manager to audit updates to the provider database on a monthly basis.

    Recommendation 8
    We recommend that BCBSSC provide evidence that the monthly audits have been conducted
    in accordance with the new procedures.

    BCBSSC Response:
    “The Plan agrees with this recommendation and has implemented new procedures that
    require management to audit updates to the provider data base on a monthly basis.

                                                12
   Attachment Recommendation # 8 is a copy of the most current report that has been
   reviewed to ensure the data base was updated accurately. The initials of management staff
   are noted on each report.”

   OIG Reply:
   This evidence provided by BCBSSC indicates that the Plan now conducts monthly audits in
   accordance with its new procedures; no further action is required.

Special Investigations and Fraud
The OIG evaluated the BSBCSC policies and procedures governing special investigations and
fraud. We determined that BCBSSC has substantial policies and procedures in place to detect,
manage, and report fraud. There were no areas of improvement noted during our review.

Application Controls Testing
To validate the claims processing controls, a testing exercise was conducted on the BCBSSC
local          system and the BCBSA’s FEP Express system that is used to process claims from
all BCBS plans. This test was conducted at BCBSSC’s Columbia, South Carolina facility with
the assistance of BCBSSC personnel. The exercise involved processing claims designed with
inherent flaws in the test environment of the claims adjudication applications. Upon conclusion
of the testing exercise, the expected results were compared with the actual results obtained
during the exercise.

The sections below document the opportunities for improvement that were noted related to
application controls.

a) Chiropractor Claims
   The          system automatically denied claims for services rendered by a chiropractor
   within the scope of his license.

   The OIG entered a test claim into           with an ankle x-ray procedure and an ankle
   fracture diagnosis. A chiropractor license in South Carolina allows the provider to perform
   ankle x-rays, but         denied this claim because the diagnosis code was invalid for a
   chiropractor. In this scenario, a chiropractor would be unable to determine the diagnosis
   until after the procedure was already performed.

   The existence of this denial edit increases the risk that chiropractors will not get paid for
   performing an ankle x-ray and that members will be held liable for this service that should be
   a covered benefit.

   Recommendation 9
   We recommend that BCBSSC make the appropriate system modifications to ensure that
   ankle x-rays performed by a chiropractor are not denied because of an invalid diagnosis.




                                               13
   BCBSSC Response:
   “BCBSSC agrees with this recommendation and has made the appropriate modification to
   its benefit files table which did not require a change sheet on March 31, 2011 to ensure
   that ankle x-rays performed by a chiropractor are not denied because of an invalid
   diagnosis. Attachment Recommendation # 9 is the support documenting that the system
   correction was implemented in the Plan’s local system.”

   OIG Reply:
   This evidence provided by BCBSSC indicates that the Plan has made appropriate
   modifications to ensure that ankle x-rays performed by chiropractors are not denied because
   of an invalid diagnosis; no further action is required.

b) Procedure to Diagnosis Inconsistency Claims
   A test claim was processed where benefits were paid for a procedure associated with an
   inappropriate diagnosis.

   The OIG entered a test claim into         with a procedure code
               and a diagnosis of a              . Despite the procedure/diagnosis
   inconsistency, the claim processed through the local system without encountering any edits
   and was sent to FEP Express. FEP Express also processed and paid the claim.

   This system weakness increases the risk that benefits are being paid for procedures
   associated with a diagnosis that may not warrant such treatment.

   Multiple OIG audits of other BCBS plans have detected a variety of weaknesses and
   inconsistencies between the plans’ medical edit capabilities. We believe that comprehensive
   medical edit software is needed for FEP Express to ensure that all BCBS claims are subject
   to the same level of quality control.

   Recommendation 10
   We recommend that BCBSA implement comprehensive medical edit software on FEP
   Express.

   BCBSSC Response:
   “In order to comply with the recommendation, BCBSA will issue a Request for
   Information to obtain additional information on the types of medical edit software
   packages available for implementation in the FEP Claims System by July 2011. Once
   responses have been received, a determination will be made as to whether FEP will
   implement a commercial software package or develop the medical edits internally.”

   OIG Reply:
   As part of the audit resolution process, we recommend that BCBSSC continue to provide
   OPM’s Audit Resolution group with evidence of its progress in implementing comprehensive
   medical edits on FEP Express.

                                              14
c)          Modifier Claims
     A test claim was processed where                                  was automatically altered by
              to include an additional modifier.

     The OIG entered two test claims with different                               applied to each
     claim. An                  indicates a
                        assisted with           whereas an      modifier indicates another
               assisted with the         . The test claim with only an       modifier claim was
     automatically adjusted by           to include both modifiers before sending the claim to FEP
     Express. As a result, the claim with an      ’ modifier was priced as though it had an
     modifier.

     These test claims were subject to OBRA 93 pricing because the members had Medicare A
     but no Medicare B coverage. We understand that the current FEP Express test environment
     must simulate the pricing of OBRA93 claims because the OBRA93 pricing vendor does not
     have a functional test environment. However, the risk remains that the production
     environment of the OBRA93 pricer could price the claims incorrectly because the BCBS
     systems are providing it with the incorrect modifier code.

     Recommendation 11
     We recommend that BCBSSC make the appropriate system modifications to ensure that its
     system does not make adjustments to assistant surgeon modifier codes.

     BCBSSC Response:
     “The Plan agrees with the recommendation and implemented the required system
     modifications to correct this exception on April 9, 2011. Attachment Recommendation
     # 11 is the support documenting that the change was implemented in the Plan’s local
     system.”

     OIG Reply:
     This evidence provided by BCBSSC indicates that the Plan has made the appropriate system
     modifications to ensure that its system does not make adjustments to assistant surgeon
     modifier codes and that it addresses the recommendation; no further action is required.

d) Pricing of                             Claims
     Test claims for                          were paid incorrectly.

     The BCBS benefit structure states that preventative care                        are a
     covered benefit for females age 60 and over. This benefit would not be covered for females
     under 60.




                                                   15
     The OIG entered several test claims for osteoporosis screenings for individuals both over and
     under the age of 60 receiving                        . The          System processed and
     priced all claims the same regardless of the member’s age.

     This system weakness increases the risk that the Plan is paying benefits in excess of what is
     allowed. BCBSSC stated that they have reported this issue to the BCBS FEP Operations
     Center for correction.

     Recommendation 12
     We recommend that BCBSSC make the appropriate system modifications to ensure that
                       are being paid in accordance with the benefit structure.

     BCBSSC Response:
     “After the implementation of the 2011 Benefit changes, it was discovered that the
                                     was not administered correctly in FEPExpress. A claims
     system modification to correct processing of                    was implemented on
     May 26, 2011. Attachment Recommendation # 12 provides support for this change in the
     FEP Claims System.”

     OIG Reply:
     This evidence provided by BCBSSC indicates that the Plan has made the appropriate system
     modifications to ensure that                      are being paid in accordance with the
     benefit structure; no further action is required.

F. Health Insurance Portability and Accountability Act
  The OIG reviewed BCBSSC’s efforts to maintain compliance with the security and privacy
  HIPAA standards.

  BCBSSC has implemented a series of IT security policies and procedures to adequately address
  the requirements of the HIPAA security rule. BCBSSC has also developed a series of privacy
  policies and procedures that directly addresses all requirements of the HIPAA privacy rule. Each
  line of business, subsidiary, and some individual departments have designated a Privacy Official
  who has the responsibility of ensuring their area is compliant with HIPAA privacy regulations.
  BCBSSC employees receive HIPAA-related training during new hire orientation, as well as
  annual refresher training.

  Nothing came to our attention that caused us to believe that BCBSSC is not in compliance with
  HIPAA regulations.




                                                 16
                    III. Major Contributors to This Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
•                 r, Group Chief
•                      , Senior Team Leader
•                         , IT Auditor
•               , IT Auditor
•                          , IT Auditor
•                    , IT Auditor




                                              17
June 28, 2011                                                 Federal Employee Program
                                                              1310 G Street, N.W.
                                                              Washington, D.C. 20005
                                                              202.942.1000
                                                              Fax 202.942.1125
               Chief
Information Systems Audits Group
Insurance Service Programs
Office of Personnel Management
1900 E Street, N.W., Room 6400
Washington, D.C. 20415

Reference: OPM DRAFT EDP AUDIT REPORT
           South Carolina Blue Cross Blue Shield
           Audit Report Number 1A-10-24-11-014

Dear            :

This letter is in response to the above-referenced U.S. Office of Personnel
Management (OPM) Draft Audit Report covering the Federal Employees’ Health
Benefits Program (FEHBP) Audit of Information Systems General and Application
Controls for the South Carolina Blue Cross Blue Shield Plan’s interface with the
FEP claims processing system, access and security controls. Our comments
regarding the findings in the report are as follows:

A. ACCESS CONTROLS
a) Segregation of Duties

   Recommendation 1
   The OIG Auditors recommended that BCBSSC remove all application
   programmers’            user accounts in the production application as well as
   their administrator rights to       security tables.

   Response to Recommendation 1
   The Plan agrees with this finding. BCBSSC will remove all application
   programmers’            user accounts from the production application access
   lists as well as their administrator rights to production     security tables.
            and Data Security Management are developing a process that will allow
   programmers the ability to access the production          application on an as
   needed basis to resolve emergency production issues. The anticipated
June 28, 2011
Page 2



   completion date for this project is 4th quarter 2011. Research and changes are
   required to assure that the application programmers can keep their test
   application security access when removed from the production application
   security tables.

b) Access Logical Privileges Approval and Review

   Recommendation 2
   The OIG Auditors recommended that BCBSSC modify the                   recertification
   process to include verification that the specific application transactions/features
   that each user has access to is appropriate for that individual.

   Response to Recommendation 2
   The Plan indicated that the application level security is the primary mechanism
   used to control access to         data and functions. Managers are responsible
   for requesting the required access for their employees to perform routine job
   functions and responsibilities.

   Information System (I/S) areas of responsibility is to work with Corporate Audit
   IAG to enhance the current quarterly          application access recertification.
   Enhancements will include providing each manager with more information to
   determine if the level of access assigned is appropriate. First, the Plan’s I/S
   staff must complete the design signoff and determine the cost of the project.
   Once the cost has been determined, a request for funding approval will be
   submitted to FEP. It is completion date for these activities 4th Quarter 2011.

c) Tracking Weaknesses Identified in Vulnerability Scans

   Recommendation 3
   The OIG Auditors recommended that BCBSSC continue its efforts to develop a
   methodology to track the current status of all potential weaknesses identified
   during vulnerability scan weaknesses.

   Response to Recommendation 3
   The Plan agrees with this finding and will continue to develop a methodology to
   track the current status of potential weaknesses identified through vulnerability
   scans. The target completion date is the 4th Quarter 2011.
June 28, 2011
Page 3



   Email Encryption

   Recommendation 4
   The OIG Auditors recommended that BCBSSC configure                    to
   automatically scan and encrypt all outgoing email that contains sensitive
   information.

   Response to Recommendation 4
   The Plan agrees with this finding. There is currently a project under way to
   configure and implement this functionality for email across all lines of business.
   The completion date for this project cannot be determined until certain phases
   of these activities have been completed. The target completion date is the 4th
   Quarter 2011.

d) Laptop Encryption

   Recommendation 5

   The OIG Auditors recommended that BCBSSC implement encryption controls
   on all company issued laptops.

   Response to Recommendation 5
   The Plan agrees with this finding. Encryption controls have already been
   deployed to all company issued laptops that reside on Medicare networks. A
   project is under way to extend this functionality to all remaining company
   issued laptops. Target completion date is July 31, 2011. Once this project is
   completed, documentation to support the action taken will be provided to OPM.

e) Network Port Scanning

   Recommendation 6
   The OIG Auditors recommended that BCBSSC implement controls to
   continuously scan active ports in its network environment for                .

   Response to Recommendation 6
   The Plan agrees with this finding. A review of the recommended adoption of
   Network Access Control technology is currently in process. Once the review
   has been complete and the project cost is determine, a request for funding
   approval will be sent to FEP. The anticipated completion date for this project is
   1st Quarter 2012.
June 28, 2011
Page 4



B. Configuration Management

a) Location of Backup Tape Vault

   Recommendation 7
   The OIG Auditors recommended that BCBSSC re-evaluate its methodology for
   storing data tapes off-site and consider implementing the additional controls
   typically found at other FEHBP insurance carriers.

   Response to Recommendation 7
   Information has not been provided to BCBSSC regarding the controls in place
   at other FEHBP carriers. The NIST SP 800-34 Section 3.41 standards do not
   contain definitive criteria as to the location of the vault. In addition, BCBSSC is
   audited by numerous external agencies annually with no findings relative to the
   vault location.

   BCBSSC will, based upon the recommendation of this report, commence an
   effort, with approval by the FEPDO, to review alternative methodologies as
   recommended by the auditors. Once identified, a plan of action can be
   developed based on the options determined appropriate by FEPDO and
   BCBSSC. The target completion date for this project is the 3rd Quarter 2011.

   BCBSSC’s tape storage process does not impact the FEP Portability Project.
   There are no tapes used for transferring FEP data to and from the CareFirst
   data center to the Contingency environment at Blue Cross and Blue Shield of
   South Carolina. The transmission of this data used to recover the environment
   is electronic over a dedicated circuit between the CareFirst data center and the
   BCBSSC facility. Upon declaration of a triggering event, data would be
   transmitted over this dedicated circuit to BCBSSC and BCBSSC would recover
   the environment using this data.

C. Claims Adjudication

Debarment

a) Auditing of Debarment Database

   Recommendation 8
   The OIG Auditors acknowledge the steps that BCBSSC has taken to address
   this recommendation. As part of the audit resolution process, we recommend
   that BCBSSC provide Healthcare and Insurance Office (HIO) with evidence
   that the monthly audits have been conducted in accordance with the new
   procedures.
June 28, 2011
Page 5




   Response to Recommendation 8
   The Plan agrees with this recommendation and has implemented new
   procedures that require management to audit updates to the provider data base
   on a monthly basis. Attachment Recommendation # 8 is a copy of the most
   current report that has been reviewed to ensure the data base was updated
   accurately. The initials of management staff are noted on each report.

Application Controls Testing

a) Chiropractor Claims

   Recommendation 9
   The OIG recommended that BCBSSC make the appropriate system
   modifications to ensure that ankle x-rays performed by a chiropractor are not
   denied because of an invalid diagnosis.

   Response to Recommendation 9
   BCBSSC agrees with this recommendation and has made the appropriate
   modification to its benefit files table which did not require a change sheet on
   March 31, 2011 to ensure that ankle x-rays performed by a chiropractor are not
   denied because of an invalid diagnosis. Attachment Recommendation # 9 is
   the support documenting that the system correction was implemented in the
   Plan’s local system.

b) Procedure to Diagnosis Inconsistency Claims

   Recommendation 10
   The OIG Auditors recommended that BCBSA implement comprehensive
   medical edit software on FEP Express.

   Response to Recommendation 10
   In order to comply with the recommendation, BCBSA will issue a Request for
   Information to obtain additional information on the types of medical edit
   software packages available for implementation in the FEP Claims System by
   July 2011. Once responses have been received, a determination will be made
   as to whether FEP will implement a commercial software package or develop
   the medical edits internally.
June 28, 2011
Page 6




c)         Modifier Claims

     Recommendation 11
     The OIG Auditors recommended that BCBSSC make the appropriate system
     modifications to ensure that its system does not make adjustments to
              modifier codes.

     Response to Recommendation 11
     The Plan agrees with the recommendation and implemented the required
     system modifications to correct this exception on April 9, 2011. Attachment
     Recommendation # 11 is the support documenting that the change was
     implemented in the Plan’s local system.

d) Pricing of                  Screening Claims

     Recommendation 12
     The OIG Auditors recommend that BCBSSC make the appropriate system
     modifications to ensure that        benefits are being paid in accordance
     with the benefit structure.

     Response to Recommendation 12
     After the implementation of the 2011 Benefit changes, it was discovered that
     the                                 was not administered correctly in
     FEPExpress. A claims system modification to correct processing of
                   claims was implemented on May 26, 2011. Attachment
     Recommendation # 12 provides support for this change in the FEP Claims
     System.
June 28, 2011
Page 7



We appreciate the opportunity to provide our response to this Draft Audit Report
and request that our comments be included in their entirety as an amendment to
the Final Audit Report.

Sincerely,




                    Executive Director
Program Integrity


Attachments (4)
cc:                 , OPM
                         , BCBSSC
                       , FEP
                        , FEP
